TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Growing Number of Requests for
                  Procurement Actions at Yearend Increases
                     the Risk of Inefficient and Ineffective
                                    Spending



                                      September 24, 2007

                              Reference Number: 2007-10-181




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 24, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Growing Number of Requests for
                             Procurement Actions at Yearend Increases the Risk of Inefficient and
                             Ineffective Spending (Audit # 200710004)

 This report presents the results of our review of yearend spending. The overall objective of this
 review was to determine whether the Internal Revenue Service (IRS) is efficiently managing its
 fiscal yearend spending. This audit was part of our Fiscal Year (FY) 2007 annual audit plan and
 was requested by the IRS Director, Office of Procurement.

 Impact on the Taxpayer
 IRS fiscal yearend procurements are increasing dramatically. Our analysis of commitments for a
 5-year period1 showed that the trend for spending at fiscal yearend is on the rise. Inefficient and
 ineffective procurement actions can occur when there is a rush to use funds before they expire at
 fiscal yearend. This rush increases the risk that items purchased may not meet the requester’s
 need, thus requiring a second procurement action; were not obtained at the best possible price; or
 did not use the best vendor or type of contract because Office of Procurement (Procurement)
 personnel do not have the time necessary to perform a full contractor competition process.
 Therefore, funds may be spent inefficiently and ineffectively (i.e., not in the best interest of the
 Federal Government or the American taxpayer).

 Synopsis
 In FY 2002, the dollar value of commitments for the month of September was $17 million. In
 contrast, for FY 2006, the value of commitments for September was more than $131 million, an

 1
     FYs 2002 – 2006.
                               The Growing Number of Requests for Procurement
                               Actions at Yearend Increases the Risk of Inefficient
                                            and Ineffective Spending


increase of 671 percent. Similarly, the number of September commitments also increased by
approximately 29 percent, from 1,182 in FY 2002 to 1,529 in FY 2006. While both Procurement
and the IRS business units believe they have been able to satisfactorily manage fiscal yearend
procurements so far, the issue has reached a possible critical limit.
If the trend for spending at fiscal yearend on procurement actions continues to increase, there is a
strong risk that Procurement will eventually be unable to handle the workload. Procurement
used overtime to complete its required procurement actions before the end of each year included
in our review. However, in the future, the IRS could be facing the difficult situation of obtaining
items that do not meet requirements or are not needed, resulting in wasteful spending or having
to allow the funds to expire and no longer be available to the IRS. We believe neither situation is
acceptable. Given the current situation, the IRS needs to exercise better business practices when
making budgetary decisions and planning for fiscal yearend procurement activities that would
reduce the risk of inefficient and ineffective spending.
In addition to these trends, we identified deficiencies with 14 (15 percent) of 92 procurement
actions2 awarded in August and September 2006. We believe appropriations regulations may
have been violated for 4 of the actions, while all required acquisition steps were not completed
for the remaining 10 actions.

Recommendations
We recommended the Deputy Commissioner for Operations Support, with support, assistance,
and input from the Deputy Commissioner for Services and Enforcement, ensure business unit
fiscal yearend procurement budgetary decisions and planning are performed in a manner that
results in the early involvement of Procurement in the acquisition process, so Procurement can
better manage its workload at fiscal yearend. The Director, Procurement, should review the
14 actions noted in this audit and ensure all acquisition steps were completed and fully
documented in the contract files. Specifically, comments should be made explaining the
acceptance or nonacceptance of the possible procurement regulation violations identified by this
audit. In addition, the Director, Procurement, should reinforce with Procurement personnel the
importance of completing all acquisition steps and issue guidance to the business units regarding
the requirements governing the use of appropriate fiscal year funding.

Response
IRS management agreed with our recommendations. A cover memorandum signed by the
Deputy Commissioner for Operations Support and the Deputy Commissioner for Services and
Enforcement will be attached to the Advanced Acquisition Planning Information Request and

2
    A procurement action can be a contract, contract modification, delivery/task order, etc.
                                                                                                   2
                       The Growing Number of Requests for Procurement
                       Actions at Yearend Increases the Risk of Inefficient
                                    and Ineffective Spending


Transmittal. This memorandum will be distributed throughout each business unit and will
emphasize the importance of teaming with Procurement at the earliest stages of the acquisition
life cycle. In addition, Procurement plans to provide both Deputy Commissioners a monthly
report detailing the comparative percentages of funds committed and obligated by each business
unit.
Procurement completed a review of each of the 14 actions and will place a Memo for the Record
in each contract file acknowledging acceptance of the violation for 13 of the actions. For the
remaining action, which totaled $51,120, Procurement’s review showed the services being
acquired were nonseverable. Therefore, the funds were obligated in the appropriate fiscal year.
We accept Procurement’s review results as positive action taken in response to our
recommendation.
In addition, where applicable, Procurement plans to complete previously overlooked acquisition
steps. The Director, Procurement, also plans to issue an email reminder to all Procurement
personnel advising them of the importance of adhering to procurement regulations and policies at
all times. Finally, Procurement plans to develop a discussion paper regarding bona fide need and
discuss the topic at the Acquisition Planning Conference. Management’s complete response to
the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                 3
                                 The Growing Number of Requests for Procurement
                                Actions at Yearend Increases the Risk of Inefficient
                                             and Ineffective Spending




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Fiscal Yearend Requests for Procurement Actions Have Been
          Increasing......................................................................................................Page 3
                    Recommendation 1:..........................................................Page 7

          Fiscal Yearend Actions May Have Violated Appropriation
          Regulations and Were Being Awarded Without All Acquisition
          Steps Being Completed.................................................................................Page 8
                    Recommendation 2:........................................................Page 9

                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 16
       The Growing Number of Requests for Procurement
      Actions at Yearend Increases the Risk of Inefficient
                   and Ineffective Spending




                Abbreviations

FY        Fiscal Year
IRS       Internal Revenue Service
                            The Growing Number of Requests for Procurement
                           Actions at Yearend Increases the Risk of Inefficient
                                        and Ineffective Spending




                                             Background

Federal Government agencies generally receive a new                    Inefficient yearend spending can
budget each fiscal year1 and are responsible for                      occur when there is a rush to use
managing the funds to run their operations and to                     funds at the end of the fiscal year
obtain goods and services. As a general rule, funds                     before the funds expire and can
                                                                               no longer be used.
must be obligated2 before the end of the fiscal year, or
the funds will expire and no longer be available to that
agency.
If a Federal Government agency needs to purchase an item, several steps must occur, depending
on the dollar value of the item. Within the Internal Revenue Service (IRS), purchases are
generally processed through the IRS Office of Procurement (Procurement). Various offices
throughout the IRS will submit requests to Procurement to purchase a particular item.
Procurement is responsible for researching different contractors, selecting the appropriate one,
purchasing the item, and approving the invoice(s) for payment. The contractor provides the item
directly to the requesting office.
Procurement activity is governed by numerous regulations and policies designed to protect the
public’s interest and ensure procurement actions3 are performed in the most efficient and
effective manner. In general, this would include the accurate definition of requirements to
ensure the requester’s needs are satisfied, meaningful contractor negotiations to ensure the ability
to obtain the best possible price, and adequate time to perform a full contractor competition
process to ensure the selection of the best contract type.




1
  Congress makes funds available for expenditure by means of appropriation acts or continuing resolutions. An
appropriation is the authority given to Federal Government agencies to incur expenses and make payments from the
Department of the Treasury for specified purposes. A continuing resolution provides budget authority to continue
operations until appropriations are enacted. Continuing resolutions are enacted when action on appropriations is not
completed by the beginning of the fiscal year.
2
  Procurement actions are recorded in two steps: commitment and obligation. A commitment is a reservation of
funds prior to the obligation of funds. Typically for procurement actions (purchase orders, contracts, etc.), a
commitment is created by a purchase requisition. This action sets aside sufficient funds to cover the cost of the
purchase. The funds remain committed until the obligation is made or the commitment is cancelled. An obligation
is a binding agreement that will result in fund disbursements immediately or in the future. Funds are obligated when
procurement actions are awarded. The funds are spent as invoices are received from the vendor for goods and
services provided to the IRS.
3
  A procurement action can be a contract, contract modification, delivery/task order, etc.
                                                                                                            Page 1
                            The Growing Number of Requests for Procurement
                           Actions at Yearend Increases the Risk of Inefficient
                                        and Ineffective Spending



The Federal Acquisition Regulation4 provides uniform policies and procedures for acquisitions
by executive agencies of the Federal Government. The Department of the Treasury Acquisition
Regulation also includes policies and procedures to assist in processing Department of the
Treasury acquisitions. In addition, the IRS has issued policies and procedures memoranda
regarding the acquisition process.
The IRS Request Tracking System5 contained 17,467 commitments, totaling approximately
$1.9 billion, for Fiscal Year (FY) 2006. Approximately 14 percent of these commitments
occurred in the last 2 months of the fiscal year. Additionally, the Request Tracking System
contained 12,530 obligations, totaling approximately $1.8 billion, for FY 2006, with more than
27 percent of these obligations occurring in the last 2 months of the fiscal year.
This review was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, during the period January through May 2007. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




4
  48 C.F.R. ch. 1 (2005).
5
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services.
                                                                                                          Page 2
                        The Growing Number of Requests for Procurement
                       Actions at Yearend Increases the Risk of Inefficient
                                    and Ineffective Spending




                                Results of Review

Fiscal yearend procurements have increased dramatically over the last 5 fiscal years, both in
dollar value and number of requests. Procurement actions made in the last month of the fiscal
year (September) represent a high risk, especially because there is limited time to process the
actions and required steps must be taken. While both Procurement and the IRS business units
believe they have been able to satisfactorily manage fiscal yearend procurements so far, this
issue has reached a possible critical limit. Based on this trend, the IRS could exercise better
business practices when making budgetary decisions and planning for fiscal yearend
procurement activities, resulting in more efficient and effective spending. Our analysis identified
two conditions that indicate IRS management needs to make changes in this area as soon as
possible. First, there has been a trend of increasing requests for fiscal yearend procurement
actions; second, there have been fiscal yearend procurement actions for which all required
acquisition steps were not completed.

Fiscal Yearend Requests for Procurement Actions Have Been
Increasing
Our analysis of commitment and obligation rates for a 5-year period, FYs 2002 through 2006,
showed that requests to expend funds for procurement actions at fiscal yearend have been
increasing dramatically. In FY 2002, the value of commitments in the Request Tracking System
for September was $17 million. In contrast, for FY 2006, the value of commitments for
September was more than $131 million, an increase of 671 percent. Figure 1 shows the value of
commitments and obligations for September over the 5-year period.




                                                                                            Page 3
                                             The Growing Number of Requests for Procurement
                                            Actions at Yearend Increases the Risk of Inefficient
                                                         and Ineffective Spending



     Figure 1: Commitment/Obligation Amounts for the Month of September
                               (by fiscal year)

                                               Commitments                                                             Obligations


                                            $140                                                                $300

                                            $120                                                                $250




                                                                                        Dollars (in millions)
                    Dollars (in millions)




                                            $100
                                                                                                                $200
                                             $80
                                                                                                                $150
                                             $60
                                                                                                                $100
                                             $40
                                                                                                                $50
                                             $20

                                              $0                                                                 $0



                                                                                                                         2002
                                                                                                                                2003
                                                                                                                                       2004
                                                                                                                                              2005
                                                                                                                                                     2006
                                                     2002
                                                            2003
                                                                   2004
                                                                          2005
                                                                                 2006




                                             ($20)

                                                            Fiscal Year                                                         Fiscal Year


                  Source: Documentation from the Request Tracking System provided
                  by Procurement.

In addition, the number of commitments increased by approximately 29 percent, from
1,182 in FY 2002 to 1,529 in FY 2006. Figure 2 shows the number of commitments and
obligations for September over the 5-year period.




                                                                                                                                                            Page 4
                            The Growing Number of Requests for Procurement
                           Actions at Yearend Increases the Risk of Inefficient
                                        and Ineffective Spending



      Figure 2: Commitment/Obligation Numbers for the Month of September
                                (by fiscal year)

                                 Commitments                                             Obligations


                               1800                                               1800
                               1600                                               1600
                               1400                                               1400
                               1200                                               1200
                      Number




                                                                         Number
                               1000                                               1000
                               800                                                800
                               600                                                600
                               400                                                400
                               200                                                200
                                 0                                                  0
                                      2002
                                             2003
                                                    2004
                                                           2005
                                                                  2006




                                                                                           2002
                                                                                                  2003
                                                                                                         2004
                                                                                                                2005
                                                                                                                       2006
                                             Fiscal Year                                          Fiscal Year


                    Source: Documentation from the Request Tracking System provided
                    by Procurement.

Procurement officials expressed concerns with the rising dollar value of commitments at fiscal
yearend, which significantly increases the workload for Procurement in the last month of the
fiscal year. Procurement officials also expressed concern that, because of the number of requests
they receive at fiscal yearend, they believed they were not getting as much savings as they could
if they had had more time to define requirements, negotiate with the contractors, and select the
adequate type of contract.
In addition, Procurement officials stated that many of the requisitions submitted by the business
units are incomplete. We could not identify this as an issue because the Procurement files we
reviewed did not contain any documentation that business unit requests were inaccurate,
incomplete, or untimely. Procurement officials explained that information regarding poorly
submitted requests would not be documented in the contract because this issue occurs before a
contract file is created. Procurement officials did agree to consider having these poorly
submitted requests documented on the Request Tracking System. Poorly submitted requests
affect Procurement’s efficient and effective use of resources because Procurement personnel
need to send the requisitions back to the business units or work with the business units to obtain
all the necessary information.
An increase in spending at fiscal yearend is not a new condition for IRS management, and there
have been attempts to try to reduce the need for September procurements. Each year, the
Chief Financial Officer and the Chief, Agency-Wide Shared Services, issue a memorandum to
the business units explaining the fiscal yearend process. In FY 2006, the memorandum was
                                                                                                                              Page 5
                         The Growing Number of Requests for Procurement
                        Actions at Yearend Increases the Risk of Inefficient
                                     and Ineffective Spending



issued on February 13, 2006. It provided the dates by which spending plans were due to the
Chief Financial Officer and when commitments needed to be in the Request Tracking System for
Procurement to process them by fiscal yearend. The Director, Procurement, also issues a
memorandum regarding acquisition planning dates each year. This memorandum provides
requisition due dates for various types of contractual vehicles.
However, as shown in Figures 1 and 2, these joint actions have not been effective. To explain
this condition, Chief Financial Officer officials offered that the spike at the end of the year is
normal and most of the business unit managers will be conservative and not spend all their funds
early in the year. In addition, some funds may not become available until the end of the fiscal
year when the various IRS offices determine they do not need all the funds they initially
anticipated. Further, Procurement and business unit personnel indicated that budgetary
continuing resolutions are a contributing factor to the increased fiscal yearend spending. These
continuing resolutions affect the IRS’ ability to initiate procurement actions earlier in the year.
Figure 3 presents the continuing resolutions and the dates on which budget appropriations were
passed for the IRS.
                    Figure 3: Continuing Resolutions (by fiscal year)

                             Fiscal Year              Date Appropriation
                                                         Was Passed
                                 2002                      1/10/2002
                                2003                        2/20/2003
                                2004                        1/31/2004
                                2005                       12/08/2004
                                2006                       12/31/2005
                    Source: Documentation provided by Procurement.

During a continuing resolution, the IRS has limits on the use of its funds. For instance, new
programs or initiatives cannot be started, and IRS guidance indicates that funded contracts
should be “mission critical” items or services that, if not obligated or paid for during the
continuing resolution, would greatly diminish service to taxpayers or tax law enforcement.
We understand the need to expend funds at the end of the fiscal year. However, we believe any
rush to use funds before they expire increases the risk of inaccurate definition of requirements,
resulting in the item purchased not meeting the requester’s need and completion of another
procurement action. It may also result in less meaningful contractor negotiations that limit the
IRS’ ability to obtain the best possible price and inadequate selection of the contract type
because Procurement personnel do not have the time necessary to perform a full contractor
competition process.


                                                                                            Page 6
                         The Growing Number of Requests for Procurement
                        Actions at Yearend Increases the Risk of Inefficient
                                     and Ineffective Spending



We believe good business practices dictate that the business units anticipate potential overages or
excess funds that could be released at the end of the year and not wait until they are notified that
funds are available before starting the research to prepare the procurement request. The better
the business units are able to describe the requested item (e.g., what are the business needs,
capacity, size), the easier it is for Procurement to identify the best vendor and price. If
Procurement is involved in the fiscal yearend acquisition process as early as possible (i.e., when
there are indications the funds could be released or shortly after funds are released), it can assist
in planning the acquisitions by alerting the business units to the types of information needed for
the request. This joint planning fosters accurate, complete, and timely requests for goods and
services. In addition, involving Procurement early in the process will help Procurement manage
its workload and satisfy its customers in terms of cost, quality, and timeliness of the delivered
products or services.
If the trend for spending at fiscal yearend on procurement actions continues to increase, there is a
strong risk that Procurement will eventually be unable to handle the workload. Procurement
used overtime to complete its required procurement actions before the end of each year included
in our review. However, in the future, the IRS could be facing the difficult situation of obtaining
items that do not meet requirements or are not needed, resulting in wasteful spending or having
to allow the funds to expire and no longer be available to the IRS. We believe neither situation is
acceptable. Given the current situation, we believe IRS management has an opportunity now,
before the situation gets out of control, to reduce fiscal yearend spending and intentionally plan
for spending funds more equally throughout the fiscal year.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support, with support,
assistance, and input from the Deputy Commissioner for Services and Enforcement, should
ensure business unit fiscal yearend procurement budgetary decisions and planning are performed
in a manner that results in the early involvement of Procurement in the acquisition process, so
Procurement can better manage its workload at fiscal yearend.
       Management’s Response: The IRS agreed with the recommendation. A cover
       memorandum jointly signed by the Deputy Commissioner for Operations Support and the
       Deputy Commissioner for Services and Enforcement will be attached to the Advanced
       Acquisition Planning Information Request and Transmittal. The memorandum will be
       distributed throughout each business unit and will emphasize the importance of teaming
       with Procurement at the earliest stages of the acquisition life cycle. In addition,
       Procurement plans to provide both Deputy Commissioners a monthly report detailing
       comparative percentages of funds committed and obligated by each business unit.




                                                                                              Page 7
                             The Growing Number of Requests for Procurement
                            Actions at Yearend Increases the Risk of Inefficient
                                         and Ineffective Spending



Fiscal Yearend Actions May Have Violated Appropriation Regulations
and Were Being Awarded Without All Acquisition Steps Being
Completed
The IRS may have violated appropriation regulations and did not ensure all steps were completed
before awarding procurement actions at fiscal yearend. We selected 92 procurement actions
awarded in August and September 2006 to determine whether all required steps were performed
before the procurement actions were awarded.
Procurement regulations and policies require the IRS to perform various steps before awarding a
procurement action. The required steps are based on the type of action and the dollar value of
the action. For instance, the Federal Acquisition Regulation and IRS policy generally require
that acquisition planning be documented in a written acquisition plan. In addition,
post-procurement reviews are to be performed. The type and level of such reviews are
dependent upon the amount of the procurement action.
We identified deficiencies with the award in 14 (15 percent) of the 92 actions. While these
deficiencies did not involve significant dollar amounts, Procurement needs to ensure all the
required steps are followed before awarding an action. These deficiencies included the
following:
    •    Two awarded actions, totaling approximately $186,000, appeared to use FY 2006 funds
         for work starting in FY 2007, which is prohibited. These actions should have been
         awarded using FY 2007 funds because a legitimate need in FY 2006 was not
         established. One of these actions had in place an existing contract that expired on
         September 30, 2006. The office requesting the action explained that this contract was not
         originally extended for FY 2007 and was set to expire on September 30, 2006. However,
         the contractor’s expertise was still needed; therefore, a new action was awarded.
    •    Two actions were awarded as firm-fixed-price6 purchase orders. The orders were each
         awarded for approximately $5,000 more than the quote that was provided by the vendor.
         The contracting officer explained that the business unit wanted the additional funds added
         at the time of award to cover any revisions or corrections that may be needed on the
         project. However, because these were firm-fixed-price orders, they should not have been
         awarded with the additional FY 2006 funds. If the orders needed to be modified for
         additional work in FY 2007, that year’s funds should have been used at the time the
         modification occurred. No legitimate need was identified for the additional $5,000 for
         these orders.



6
 A firm-fixed-price contract is a type of contract providing for a price that is not subject to any adjustment on the
basis of the contractor’s cost experience in performing the contract.
                                                                                                                Page 8
                              The Growing Number of Requests for Procurement
                             Actions at Yearend Increases the Risk of Inefficient
                                          and Ineffective Spending



      •    One action, totaling approximately $4.6 million, was awarded without an acquisition
           plan, a procurement review, and a tax check being completed. The contracting officer
           explained that this was an oversight because of the extensive number of procurement
           actions being processed at fiscal yearend.
      •    Three actions, totaling approximately $11 million, included requests for post-award
           procurement reviews in the files. However, at the time of our review in February 2007,
           the reviews had not been performed as required. The contracting officers explained the
           reviews were overlooked and the actions would be presented for the required reviews
           immediately.
      •    Six actions, totaling approximately $143,000, did not have a procurement review
           documented in the file before the award of the actions. The contracting officer explained
           that reviews on these six actions were completed before the awards, but the files were not
           documented until after the awards.
The contracting officers explained that in the rush to get actions awarded at the end of the fiscal
year some things are overlooked. None of the contracting officers believed the integrity of any
fiscal yearend procurements was compromised. In addition, business unit personnel stated that it
is not a deliberate decision to wait until the end of the fiscal year to make purchases. However,
at times, funding becomes available at the end of the year for projects that originally did not have
any funding.
The business units need to be cautious in how they are using these funds. The Principles of
Federal Appropriations Law7 provide that a “bona fide need” for the fiscal year in which the
action is awarded needs to be established. Appropriations law mandates that a fiscal year’s
appropriation only be obligated to meet a legitimate (bona fide) need arising in the fiscal year for
which the appropriation was made. Actions cannot be awarded just to use available funding.
Also, Procurement offices need to ensure all steps required by regulations and policies are
followed before awarding an action. These controls are intended to ensure contract awards are in
the best interest of the Federal Government and the “bona fide need” rule is not violated.

Recommendations
Recommendation 2: The Director, Procurement, should review each of the 14 actions noted
in this audit and ensure all acquisition steps were completed and fully documented in the contract
files, especially the 4 actions in which procurement regulations may have been violated. A
specific comment should be made in the procurement file explaining the acceptance or
nonacceptance of the possible procurement regulation violations identified by this audit.



7
    Principles of Federal Appropriations Law, Third Edition, published by the Government Accountability Office.
                                                                                                           Page 9
                        The Growing Number of Requests for Procurement
                       Actions at Yearend Increases the Risk of Inefficient
                                    and Ineffective Spending



       Management’s Response: The IRS agreed with the recommendation. Procurement
       completed a review of each of the 14 actions and will place a Memo for the Record in
       each contract file acknowledging acceptance of the violation for 13 of the actions. For
       the remaining action, which totaled $51,120, Procurement’s review showed the services
       being acquired were nonseverable. Therefore, the funds were obligated in the appropriate
       fiscal year. In addition, where applicable, Procurement plans to complete previously
       overlooked acquisition steps.
       Office of Audit Comment: We accept Procurement’s review results as positive action
       taken in response to our recommendation. As a result, we reduced our reported outcome
       measure in Appendix IV from $196,000 to $144,880.
Recommendation 3: The Director, Procurement, should reinforce with Procurement
personnel the importance of completing all acquisition steps and issue guidance to the business
units regarding the concept of “bona fide need” and the requirements governing the use of
appropriate fiscal year funding.
       Management’s Response: The IRS agreed with the recommendation. The Director,
       Procurement, plans to issue an email reminder to all Procurement personnel advising
       them of the importance of adhering to procurement regulations and policies at all times.
       In addition, Procurement plans to develop a bona fide need discussion paper and make it
       available on the Procurement Policy Framework Intranet web site. Further, Procurement
       plans to discuss the bona fide need topic at the annual Acquisition Planning Conference.




                                                                                         Page 10
                                The Growing Number of Requests for Procurement
                               Actions at Yearend Increases the Risk of Inefficient
                                            and Ineffective Spending



                                                                                               Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is efficiently managing its
fiscal yearend spending. To accomplish this objective, we:
I.         Conducted a preliminary analysis of a small sample of procurement actions to identify
           indicators of inefficient fiscal yearend spending.
           A. Reviewed the Federal Acquisition Regulation,1 the Department of the Treasury
              Acquisition Regulation, and IRS policy and procedure memoranda and developed a
              checklist to identify all the steps that need to be completed before a procurement
              action2 is awarded.
           B. Identified a sample selection universe of 3,664 procurement actions awarded during
              August and September 2006 from a list provided by the Office of Procurement
              (Procurement). To conduct our preliminary analysis, we judgmentally selected 10 of
              these actions and verified, through a review of the contract files, whether all the steps
              required before award of the procurement actions were completed. We used a
              judgmental sample because we did not plan to project our results to the universe.
           C. Concluded that sufficient indicators of fiscal yearend spending problems were
              identified and continued our review.
II.        Determined whether Procurement followed all acquisition regulations when awarding
           procurement actions at fiscal yearend.
           A. Documented the process for awarding procurement actions and any concerns
              regarding fiscal yearend spending through interviews with Procurement personnel.
           B. Selected samples of 92 of the 3,664 procurement actions awarded during August and
              September 2006. We judgmentally selected 72 of the 92 actions and randomly
              selected the other 20 actions. The judgmental sample was based on the dollar value
              of the action and the date the action was awarded. We used a judgmental sample
              because we did not plan to project our results to the universe. We used a random
              sample, in part, to reduce our risk of a bias from the judgmental sample.
           C. Verified through a review of the contract files whether all steps required before award
              of the procurement actions included in our sample were completed.


1
    48 C.F.R. ch. 1 (2005).
2
    A procurement action can be a contract, contract modification, delivery/task order, etc.
                                                                                                   Page 11
                            The Growing Number of Requests for Procurement
                           Actions at Yearend Increases the Risk of Inefficient
                                        and Ineffective Spending



        D. Interviewed Procurement personnel for all the procurement actions identified as not
           having all the required steps completed before the award. We requested in writing an
           explanation of the condition.
III.    Determined whether the requesting office accurately, completely, and timely identified
        the need for goods and services being procured at fiscal yearend.
        A. Obtained a report from the IRS Request Tracking System3 that summarized
           commitments and obligations made monthly for FYs 2002 through 2006 and
           analyzed the commitment rates and the levels of spending.
        B. Identified any concerns regarding commitment rates and levels of spending through
           interviews with Procurement, the Chief Financial Officer, and business unit
           personnel.
        C. Reviewed contract files and requesting office documentation for the procurement
           actions in our sample and noted the sufficiency of the reason for the action, the need
           for the goods/services, and the timeliness of the request.
        D. Interviewed requesting personnel for all procurement actions identified as not being
           accurate, complete, or timely and, when appropriate, requested in writing an
           explanation of the condition.




3
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services.
                                                                                                        Page 12
                       The Growing Number of Requests for Procurement
                      Actions at Yearend Increases the Risk of Inefficient
                                   and Ineffective Spending



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
John R. Wright, Director
Thomas Brunetto, Audit Manager
Debra Kisler, Lead Auditor
Theresa Haley, Senior Auditor
Seth Siegel, Senior Auditor
Niurka Thomas, Auditor




                                                                                    Page 13
                      The Growing Number of Requests for Procurement
                     Actions at Yearend Increases the Risk of Inefficient
                                  and Ineffective Spending



                                                                  Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Chief Information Officer OS:CIO
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
      Deputy Commissioner for Operations Support OS
      Chief, Agency-Wide Shared Services OS:A:F
      Director, Procurement OS:A:P
      Director, Stakeholder Management OS:CIO:SM




                                                                            Page 14
                             The Growing Number of Requests for Procurement
                            Actions at Yearend Increases the Risk of Inefficient
                                         and Ineffective Spending



                                                                                                   Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings, Funds Put to Better Use – Potential; $144,880 (see page 8).

Methodology Used to Measure the Reported Benefit:
In our draft report, we reported $196,000 in potential cost savings related to 4 procurement
actions that used FY 2006 funds for work we believed was not going to start until FY 2007. Two
of these actions were each awarded for approximately $5,000 more than the quote that was
provided by the vendor. The additional funds were added to the procurement action for revisions
that may be necessary, even though these actions were awarded as firm-fixed-price1 purchase
orders. If modifications became necessary in FY 2007, the need should have been funded with
FY 2007 funds. In addition, 2 actions totaling approximately $186,000 were awarded but
appeared to use FY 2006 funds for work starting in FY 2007. These actions did not establish a
“bona fide need” in FY 2006 and should have been awarded in FY 2007.
In response to our draft report, the Office of Procurement (Procurement) completed a review of
each of the 14 actions identified in the audit and will place a Memo for the Record in each
contract file acknowledging acceptance of the violation for 13 of the actions. For the remaining
action, which totaled $51,120, Procurement’s review showed the services being acquired were
nonseverable. Therefore, the funds were obligated in the appropriate fiscal year and,
accordingly, we reduced our outcome measure to $144,880 ($196,000 less $51,120).




1
 A firm-fixed-price contract is a type of contract providing for a price that is not subject to any adjustment on the
basis of the contractor’s cost experience in performing the contract.
                                                                                                              Page 15
        The Growing Number of Requests for Procurement
       Actions at Yearend Increases the Risk of Inefficient
                    and Ineffective Spending



                                                     Appendix V


Management’s Response to the Draft Report




                                                              Page 16
 The Growing Number of Requests for Procurement
Actions at Yearend Increases the Risk of Inefficient
             and Ineffective Spending




                                                       Page 17
 The Growing Number of Requests for Procurement
Actions at Yearend Increases the Risk of Inefficient
             and Ineffective Spending




                                                       Page 18
 The Growing Number of Requests for Procurement
Actions at Yearend Increases the Risk of Inefficient
             and Ineffective Spending




                                                       Page 19
